           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       REPRESENTATIVE PAYEE
         ONSITE REVIEWS OF
        STATE INSTITUTIONS


      April 2006   A-09-06-26010




 EVALUATION
   REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   April 20, 2006                                                                   Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         San Francisco

From:   Inspector General

Subject: Representative Payee Onsite Reviews of State Institutions (A-09-06-26010)



        OBJECTIVE

        Our objective was to evaluate the adequacy of the Social Security Administration’s
        (SSA) Representative Payee Onsite Review Program for State institutions in the
        San Francisco Region.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because
        of their youth or mental and/or physical impairments. Congress granted SSA the
        authority to appoint representative payees to receive and manage these beneficiaries’
        payments. A representative payee may be an individual or an organization. SSA
        selects representative payees for Old-Age, Survivors and Disability Insurance
        beneficiaries and Supplemental Security Income recipients when representative
        payments would serve the individual’s interests.1

        To oversee its representative payees, SSA implemented the Expanded Monitoring
        Program for fee-for-service2 and volume payees3 and the Onsite Review Program
        for State institutions. Under the Expanded Monitoring Program, SSA conducts a
        site review of all fee-for-service and volume payees at least once every 3 years.
        Fee-for-service and volume payees are also subject to random reviews, quick response

        1
            SSA, POMS, GN 00501.005.
        2
          Fee-for-service representative payees are authorized by SSA to collect a fee for providing
        representative payee services. SSA, POMS, GN 00605.420 A.
        3
          Volume payees are organizational payees serving 50 or more beneficiaries and individual payees
        serving 15 or more beneficiaries. SSA, POMS, GN 00605.400 C.
Page 2 – Peter D. Spencer

checks, and educational visits. The purpose of the Expanded Monitoring Program is
to (1) allow SSA to determine whether representative payees are performing
satisfactorily, (2) deter potential misuse, (3) keep the lines of communication open
between representative payees and local SSA offices, (4) reinforce SSA’s efforts
to educate representative payees about their duties and responsibilities, and (5) be
responsive and proactive in determining what representative payees need from SSA.4

In Fiscal Year (FY) 2003, we conducted a review of SSA’s Expanded Monitoring
Program for fee-for-service and volume payees. Our review identified several areas
for SSA to improve its site review methodology; the sufficiency and reliability of
documentation gathered during site reviews; compliance with its site review
requirements; and its follow-up actions when deficiencies are identified.5

Under the Onsite Review Program, SSA conducts a site review of all State institutions
(for example, State hospitals, developmental centers, and adult mental health services)
every 3 years. The purpose of the Onsite Review Program is to (1) explore how SSA
and State institutions can improve mutual understanding and work toward resolving
common problems applicable to the beneficiaries for whom the institution serves as
representative payee, (2) determine whether a State institution’s performance as
representative payee conforms with SSA’s policies regarding use of benefits and
reporting of significant events, and (3) determine the extent to which recommendations
made in prior reviews have been implemented and take appropriate action to ensure
compliance with SSA’s policies.6

In FY 2005, the San Francisco Regional Office (SFRO) conducted onsite reviews at
10 State institutions in Arizona, California, and Nevada. In April 2005, the Regional
Commissioner requested our assistance in completing these reviews and evaluating its
Representative Payee Onsite Review Program for State institutions. We agreed to
conduct three of the onsite reviews and determine the adequacy of SSA’s procedures
for performing these reviews.




4
    SSA, POMS, GN 00605.400.
5
  SSA, OIG, The Social Security Administration’s Site Reviews of Representative Payees
(A-13-01-11042), April 2003.
6
    SSA, POMS, GN 00605.500.
Page 3 – Peter D. Spencer

RESULTS OF REVIEW
Our evaluation disclosed the Onsite Review Program was generally effective in
monitoring State institutions’ performance as representative payee and their
conformance with SSA’s policies and procedures. However, we identified several
areas where SFRO could improve the effectiveness and efficiency of its onsite reviews
of State institutions. These improvements include best practices and procedures
established for the Expanded Monitoring Program. Specifically, we found that:

•    The number of beneficiaries in SSA’s Representative Payee System (RPS) was not
     always reconciled with the State institution’s records to ensure the accuracy of RPS.

•    The sample size of beneficiary records for review was not specifically defined for
     the onsite reviews.

•    The reviewers did not select any beneficiaries who were no longer in the State
     institution’s care to ensure conserved funds were returned to SSA.

•    The beneficiaries’ identities were not verified during the onsite reviews.

•    The internal controls at the State institutions were not reviewed to ensure the
     integrity of their financial records.

•    The reviewers were not required to compare SSA’s payment records to the
     representative payee’s records to verify the SSA benefits paid to the beneficiary.

•    The timeliness of the onsite reviews of State institutions in the San Francisco Region
     could be improved.

Accuracy of the Representative Payee System

The Omnibus Budget Reconciliation Act of 1990 requires that SSA provide for specific
identification and control of all representative payees and the beneficiaries they serve.7
SSA established RPS to collect information about representative payees and the
beneficiaries who have payees. RPS contains a list of current and terminated
beneficiaries for each representative payee.

Under the Expanded Monitoring Program, SSA’s procedures require that reviewers
compare the representative payee’s list of beneficiaries to the list of beneficiaries
from RPS to ensure they agree. If not, reviewers should determine whether the
representative payee made an omission or whether RPS needs to be updated.8


7
    Pub. L. No. 101-508, § 5105; 42 U.S.C. § 405(j)(2).
8
    SSA, POMS, GN 00605.415 C.3.c.
Page 4 – Peter D. Spencer

However, under the Onsite Review Program, SSA’s procedures do not require that
reviewers reconcile the number of beneficiaries in RPS with those at the State
institution.

Based on our interviews with the SSA employees who conducted the onsite reviews,
we determined 13 of the 16 reviewers believed a reconciliation would be beneficial. For
the seven reviews SSA conducted, two reviewers had reconciled the number
of beneficiaries in RPS with those at the State institution, even though such a
reconciliation was not required.

For the three reviews we conducted, we obtained current beneficiary lists from the
State institution and RPS to determine whether (1) the beneficiaries in RPS were in
the State institution’s care and (2) the beneficiaries in the State institution’s care were
properly recorded in RPS. These 3 State institutions served as representative payee for
1,024 beneficiaries. We identified 125 beneficiaries in the State institutions’ records that
were not recorded in RPS. Conversely, we identified 89 beneficiaries in RPS that were
not in the State institutions’ records. Of this amount, 57 beneficiaries were fully
discharged, 30 had moved to another location while the institution remained the
representative payee, and 2 were never in the State institution.

Sample Size of Beneficiary Records for Review

Under the Onsite Review Program, SSA’s procedures state the sample size of
beneficiary records for review shall be based on the population of beneficiaries at the
State institution, number of institutions being visited, and amount of time available.9
In addition, SFRO established procedures for reviewers to obtain a list of beneficiaries
from RPS with the State institution as representative payee and, based on the size of
the institution, select a random sample of beneficiary records for each site, although no
fewer than 10 records should be reviewed.

For the 7 reviews SSA conducted, we found the sample size ranged from 10 to
24 beneficiaries while the total population ranged from 23 to 555 beneficiaries per
State institution. For example, SSA reviewed 24 of 550 beneficiaries at
1 State institution; whereas it only reviewed 12 of 555 beneficiaries at another State
institution. Without additional guidance in determining the proper number of beneficiary
records for review, the sample size may not provide sufficient information to evaluate
the State institution’s performance as a representative payee.

Under the Expanded Monitoring Program, SSA’s procedures require that reviewers
select a sample of 10 percent of the beneficiary records. However, reviewers must
select 10 beneficiaries for representative payees with fewer than 100 beneficiaries and
25 beneficiaries for representative payees with more than 250 beneficiaries.10

9
     SSA, POMS, GN 00605.521.
10
     SSA, POMS, GN 00605.410 C.1.e.
Page 5 – Peter D. Spencer

On June 30, 2005, SSA’s Office of Disability and Income Security Programs (ODISP)
prepared a draft policy for the Onsite Review Program for State institutions. The draft
policy also requires that the sample size be about 10 percent of the total beneficiary
population, with a minimum of 10 beneficiaries and a maximum of 25 beneficiaries.

Beneficiaries No Longer in the State Institution’s Care

Under the Expanded Monitoring Program, SSA’s procedures state that, if possible,
reviewers should select a sample of cases where the beneficiary’s relationship with the
representative payee has ended to ensure conserved funds are returned to SSA for
reissuance to the new representative payee or direct payment to the beneficiary. For
deceased beneficiaries, the reviewers should verify the representative payee turned
over any conserved funds to the legal representative of the beneficiary’s estate.11
However, under the Onsite Review Program, SSA’s procedures do not require that
reviewers select any beneficiaries who are no longer in the State institution’s care to
ensure conserved funds are returned to SSA.

For the seven reviews SSA conducted, we found that none had selected a sample of
beneficiaries who were no longer in the State institution’s care. However, at two State
institutions, SSA reviewed several beneficiaries whom RPS reported were still in the
representative payee's care when, in fact, they had ended their relationship with the
State institution.

The draft policy for the Onsite Review Program requires that reviewers select several
terminated beneficiaries during the review period to verify that conserved funds were
returned to SSA for reissuance or, if the beneficiaries had died, were turned over to their
estate.

Verification of Identities During the Beneficiary Interviews

Under the Onsite Review Program, SSA’s procedures state that reviewers should tour
the facility and meet with as many beneficiaries as time permits.12 Similarly, SFRO
established procedures for reviewers to visit a sample of beneficiaries to observe
their living quarters, verify the existence of any large purchases, and obtain general
information about the beneficiary’s environment and ability to spend money. In addition,
the reviewers should interview a small number of beneficiaries who are able
to communicate.

For the three reviews we conducted, we found that most beneficiaries were
uncommunicative and did not respond to our questions. However, during our
interviews, we verified the beneficiaries’ identities by requesting and reviewing their



11
     SSA, POMS, GN 00605.410 C.2.b.
12
     SSA, POMS, GN 00605.524.
Page 6 – Peter D. Spencer

institutional identification cards or other forms of personal identification maintained
by the State institution. We were able to verify beneficiaries’ identities regardless of
whether they verbally communicated with us.

For the seven reviews SSA conducted, we found that none of the reviewers had verified
the beneficiaries’ identities. Based on our interviews with the SSA employees who
conducted the onsite reviews, some reviewers had expressed concerns about whether
they were interviewing the correct individual because of the beneficiary’s limited
communication skills.

Based on our interviews with the representative payee coordinators in the other nine
SSA regions, we determined that one region verified the beneficiaries’ identities during
its onsite reviews. In addition, four representative payee coordinators agreed that,
subject to the availability of records, such verification may be useful.

Review of Internal Controls

Internal control is an integral component of an organization’s management. A review
of the internal controls is important in determining the organization’s effectiveness
and the efficiency of its operations, reliability of financial reporting, and compliance with
applicable laws and regulations.13

Under the Expanded Monitoring Program, SSA’s procedures require that reviewers
determine whether the representative payee has internal controls in place to ensure the
integrity of financial records. Examples of internal controls include (1) requiring that a
second employee verify invoices before checks are disbursed, (2) performing monthly
bank reconciliations, (3) prohibiting staff responsible for accounting or bookkeeping from
withdrawing beneficiary funds, (4) limiting the number of people with authority
to withdraw funds from a beneficiary’s account, (5) establishing countersignature
requirements for all disbursements, (6) establishing additional safeguards for large
disbursements, (7) performing regular reviews of the financial records by another
employee, (8) prohibiting staff or officers who are relatives from handing financial
matters, and (9) having annual audits performed by an outside contractor or entity.14

We believe that reviewers should, at a minimum, interview the representative payees to
assess the internal controls in place at the State institution. Such an assessment may
be conducted during the introductory meeting to assist reviewers in understanding the
institution’s polices and practices and determining the reliability of its financial records.
In addition, a review of internal controls may assist reviewers in identifying areas for
additional emphasis during its financial review for a sample of beneficiaries.


13
  Government Accountability Office, Standards for Internal Control in the Federal Government
(GAO/AIMD-00-21.3.1), November 1999.
14
     SSA, POMS, GN 00605.415 B.2.g.
Page 7 – Peter D. Spencer

SSA Records of Benefits Paid

Under the Expanded Monitoring Program, SSA’s procedures require that reviewers
(1) query SSA’s payment records for a sample of beneficiaries to ensure SSA is
sending benefits to the representative payee and document when benefits were actually
paid and (2) compare SSA’s payment records to the representative payee’s records to
ensure the payee’s records clearly reflect all payments made by SSA.15

Under the Onsite Review Program, SSA’s procedures require that reviewers conduct
a financial review to provide information on the effectiveness of the accounting system,
funds available for personal use, level of spending, and amount of conserved funds.16
However, these procedures do not specify that SSA’s payment records should be
compared to the representative payee’s records to verify the payments made by SSA.

The draft policy for the Onsite Review Program requires that reviewers examine a
sample of beneficiary accounts and compare them with the beneficiary’s payment
records to verify the monthly benefit amount received and posted. For the seven
reviews SSA conducted, we found that all of the reviewers had obtained the
beneficiaries’ payment records to determine whether SSA benefits were properly
recorded by the State institution. Nevertheless, we encourage SSA to adopt this policy
in its onsite reviews of State institutions to ensure consistency with the Expanded
Monitoring Program.

Scheduling of Onsite Reviews

The Social Security Disability Benefits Reform Act of 1984 requires that State
institutions be reviewed once every 3 years. If there are indications of unsatisfactory
performance, more frequent reviews may be necessary.17

In the San Francisco Region, there are 10 State institutions (7 in California,
2 in Nevada, and 1 in Arizona) that are subject to triennial reviews. Generally, SFRO
performs all of its onsite reviews in the same FY. Although SFRO conducted onsite
reviews for all 10 State institutions in FY 2001, it was unable to conduct any onsite
reviews in FY 2004 because of workload constraints. In April 2005, SFRO assembled
staff from various SSA components to perform the onsite reviews. In May 2005, SFRO
trained all employees conducting the onsite reviews. These reviews were completed
from June to September 2005.




15
     SSA, POMS, GN 00605.410 C.2.a and GN 00605.415 C.1.b.
16
     SSA, POMS, GN 00605.524.
17
     Pub. L. No. 98-460; SSA, POMS, GN 00605.500 A.
Page 8 – Peter D. Spencer

Based on our interviews with the representative payee coordinators in the other nine
SSA regions, we determined that six regions had developed a schedule to divide the
onsite reviews into different FYs during the 3-year cycle. These representative payee
coordinators believed that a multi-year schedule was effective in alleviating the
demands of conducting all of the onsite reviews in 1 year. In these six regions, the
representative payee coordinators divided the workload by State and selected one or
two States for review per year.

CONCLUSION AND RECOMMENDATIONS
We found the Onsite Review Program was generally effective in monitoring State
institutions’ performance as representative payee and their conformance with SSA’s
policies and procedures. However, we identified several areas where SFRO could
improve the effectiveness and efficiency of its onsite reviews of State institutions.
SFRO may elect to take appropriate action regionally or work with ODISP to address
these issues nationally. We recommend that SFRO:
1. Obtain beneficiary lists from State institutions and reconcile these lists with RPS
   to ensure accuracy.
2. Ensure the sample size of beneficiary records selected for review is adequate to
   evaluate the State institution’s performance as a representative payee.
3. Review a sample of beneficiaries who are no longer in the State institution’s care
   to ensure conserved funds are returned to SSA.
4. Verify the identities of the beneficiaries during the onsite reviews.
5. Assess the State institution’s internal controls over beneficiary receipts and
   disbursements.
6. Ensure SSA’s payment records are compared to the State institution’s records to
   verify the benefits paid to the beneficiaries.
7. Evaluate the feasibility of performing the onsite reviews of State institutions over
   different FYs of the 3-year cycle.

AGENCY COMMENTS

SSA agreed with all our recommendations. See Appendix C for the full text of SSA’s
comments.




                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
FY        Fiscal Year
ODISP     Office of Disability and Income Security Programs
POMS      Program Operations Manual System
Pub. L.   Public Law
RPS       Representative Payee System
SFRO      San Francisco Regional Office
SSA       Social Security Administration
U.S.C.    United States Code
                                                                         Appendix B

Scope and Methodology
We assisted the Social Security Administration (SSA) in conducting three onsite reviews
of State institutions in the San Francisco Region. We also evaluated the adequacy of
SSA’s procedures for conducting its onsite reviews of State institutions.

To accomplish our objective, we:

•   Reviewed the Social Security Act, Code of Federal Regulations, U.S. Code, and
    SSA’s policies and procedures for the review of fee-for-service payees, volume
    payees, and State institutions.

•   Reviewed the final reports for the onsite reviews of State institutions in the
    San Francisco Region during Fiscal Years (FY) 2001 and 2005.

•   Conducted onsite reviews at three State institutions in the San Francisco Region in
    accordance with SSA’s policies and procedures.

•   Interviewed SSA employees who performed the onsite reviews of State institutions
    in the San Francisco Region in FY 2005 to obtain their comments and suggestions.

•   Reviewed Intranet websites for each SSA region to obtain background information
    about their onsite review procedures.

•   Interviewed the representative payee coordinators in each SSA region to evaluate
    their onsite review procedures and identify any best practices.

•   Reviewed SSA’s draft policy for the Onsite Review Program for State institutions.

Our work was conducted at Agnews Developmental Center in San Jose, California;
Napa State Hospital in Napa, California; Sonoma Developmental Center in Eldridge,
California; and San Francisco Regional Office in Richmond, California, between
May and December 2005. We conducted the onsite reviews in accordance with SSA’s
policies and procedures. We conducted our evaluation of SSA’s Representative Payee
Onsite Review Program in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency, as applicable to the scope of our
review. The entity reviewed was the San Francisco Regional Office under the Deputy
Commissioner for Operations.
                  Appendix C

Agency Comments
                                 SOCIAL SECURITY
MEMORANDUM
Date:      April 7, 2006


To:        Patrick P. O’Carroll, Jr.
           Inspector General


From:      Regional Commissioner
            San Francisco


Subject:   Draft Report on Representative Payee Onsite Reviews of State Institutions (A-09-06-
           26010) – REPLY


Thank you for asking for our comments on your recommendations in the draft report for
Representative Payee Onsite Reviews of State Institutions in the San Francisco Region.

Your recommendations are as follows:

      1. Obtain beneficiary lists from State institutions and reconcile these lists with RPS
         to ensure accuracy.

      2. Ensure the sample size of beneficiary records selected for review is adequate to
         evaluate the State institution’s performance as a representative payee.

      3. Review a sample of beneficiaries who are no longer in the State institution’s care
         to ensure conserved funds are returned to SSA.

      4. Verify the identities of the beneficiaries during the onsite reviews.

      5. Assess the State institution’s internal controls over beneficiary receipts and
         disbursements.

      6. Ensure SSA’s payment records are compared to the State institution’s records to
         verify the benefits paid to the beneficiaries.

      7. Evaluate the feasibility of performing the onsite review of State institutions over
         different FYs of the 3-year cycle.




                                               C-1
We agree with all seven of your recommendations. Since the first six recommendations
impact the national protocol for conducting onsite reviews of state institutions, we
shared the draft recommendations with our staff contacts in the Office of the Deputy
Commissioner for Disability and Income Security Programs (ODISP). They are revising
the national instructions at this time (POMS GN 00605.500ff) and hope to issue them
soon.

We assume your intent is to send the recommendations formally to ODISP so that they
can become part of the national protocols for the next cycle of reviews. We would be
pleased to incorporate them into our regional procedures. Recommendation seven can
be implemented at the regional level, i.e., we agree to perform the onsite reviews over a
3-year cycle.

If you wish to discuss our response, please call me at (510) 970-8400. Staff may
contact Cheryl Jacobson, Center for Programs Support at (510) 970-8248.


                                      /S/
                                      Peter D. Spencer




                                           C-2
                                                                      Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments
In addition to those named above:

   Wilfred P.K. Wong, Auditor-in-Charge

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-06-26010.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit

OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations

OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General

OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                              Office of Resource Management

ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
